          U.S. Department of Energy
          Office of Inspector General
          Office of Audit Services




Audit Report

Management of the Department's
Desktop Computer Software
Enterprise License Agreements




DOE/IG-0718                             January 2006
REPORT ON THE DEPARTMENT'S DESKTOP COMPUTER
SOFTWARE ENTERPRISE LICENSING AGREEMENTS



TABLE OF
CONTENTS


           Software License Management


           Details of Finding ........................................................................................1

           Recommendations and Comments ..............................................................6


           Appendices


           1. Objective, Scope, and Methodology......................................................8

           2. Potential Savings..................................................................................10

           3. Prior Audit Reports ..............................................................................11

           4. Management Comments ......................................................................12
SOFTWARE LICENSE MANAGEMENT

Software Acquisition   Enterprise license agreements had not been effectively used
and Management         by the Department of Energy (Department) for managing
                       the acquisition and maintenance of desktop software across
                       the complex. Specifically, the Department had not taken
                       full advantage of existing software agreements and had not
                       established new agreements for commonly used
                       applications. In addition, five of the sites we reviewed
                       acquired and paid annual maintenance fees for software
                       that was never used. Other sites could not always track and
                       document the extent to which they used acquired software
                       licenses.
                                      Use of Existing Agreements

                       We observed that, in many cases, sites were not taking
                       advantage of existing enterprise-wide software agreements.
                       Although the Department established several enterprise
                       agreements in response to our prior report on its
                       Commercial Off-The-Shelf Software Acquisition
                       Framework, a number of sites did not use those
                       agreements. In particular, 7 of the 16 sites we reviewed
                       established their own agreements for a common office
                       automation software suite, which required them to pay as
                       much as 325 percent more for products than the prices
                       available by using the existing Department-wide
                       agreement. For example, Brookhaven National Laboratory
                       (Brookhaven) paid from $248 to $573 per license for two
                       separate versions of the same office automation product
                       even though it was available through a Department-level
                       agreement at a price of $176.

                       We also noted that eight of the sites we reviewed had
                       established separate agreements for document imaging
                       software even though an enterprise-wide agreement
                       existed. At Sandia National Laboratories (Sandia), we
                       identified an agreement that required it to pay over 300
                       percent more ($292 versus $90) for a particular version of a
                       popular imaging package. Similarly, a contractor at Idaho
                       National Laboratory had acquired a related imaging
                       product at $265 per license, versus the $154 per license fee
                       available from the Department's agreement.

                                   Establishment of New Agreements

                       The Department did not take action to negotiate enterprise
                       agreements for products such as antivirus, security, and
                       project management software despite the potential for

________________________________________________________________
Page 1                                            Details of Finding
                      significant savings and their widespread use across the
                      complex. Absent action by Headquarters, sites directly
                      negotiated with software providers to establish local
                      agreements or simply purchased software through various
                      retail venues. As might be expected, these purchasing
                      practices were not consistent with one another and prices
                      for the same software varied significantly both between and
                      within the same site. For example, at two of the sites
                      reviewed, prices ranged from $12 to $70 per license for a
                      common antivirus product.

                      For the encryption software most commonly used across
                      the Department, we noted that sites had negotiated 11
                      separate purchase agreements and that prices specified by
                      those agreements ranged from $70 to $208 per license. As
                      noted by the vendor for this encryption product, savings of
                      about $630,000 per year in maintenance costs alone could
                      be realized by negotiating a Department-level enterprise
                      agreement. Such an agreement could also likely match or
                      exceed the lowest price observed, potentially saving $138
                      per license. When applied to the existing universe of
                      desktops in use across the Department, such savings could
                      be significant.

                                    License Utilization and Tracking

                      Most of the organizations included in our review did not
                      effectively manage their inventories of software licenses.
                      Of the nine field sites visited, only two had fully
                      implemented an effective system to track software licenses
                      and related usage. While most of these sites had some type
                      of desktop management system in place, they were not able
                      to provide accurate information regarding the number of
                      licenses maintained or the usage of such licenses. For
                      example, Lawrence Livermore National Laboratory could
                      only document that about 65 percent of its licenses for
                      antivirus software were being utilized. In addition, officials
                      at Los Alamos National Laboratory (Los Alamos)
                      acknowledged that the site had tracking problems and
                      estimated that at least $800,000 in cost savings could be
                      realized by more effectively managing software acquisition
                      and maintenance. Documentation provided by Sandia also
                      disclosed that it was difficult, if not impossible, for the site
                      to know how many licenses existed at the site.




________________________________________________________________
Page 2                                            Details of Finding
                      Problems with tracking acquisition, utilization, and
                      maintenance of software licenses made it difficult to
                      control costs and have complicated the effort to negotiate
                      new enterprise agreements. For example, at five of the
                      sites reviewed, we found that approximately 38,000
                      encryption software licenses had been procured, but
                      37 percent (14,000) of the licenses had never been used.
                      Some of these sites, including Headquarters, paid
                      maintenance fees of more than $625,000 on the unused
                      licenses over a five year period. The lack of a complex-
                      wide asset management system may also impact the
                      Department's ability to effectively implement plans to
                      replace an existing enterprise agreement. We learned that
                      after nearly four months of effort, the Department was
                      unable to compile data on the number of office automation
                      products being used across the complex – information
                      needed to determine whether enough licenses are
                      maintained or if new ones must be acquired.


Acquisition and       These problems occurred because the Department had not
Software Management   established a complex-wide desktop software acquisition
Approach              and maintenance strategy. Despite pressure from the
                      Office of Management and Budget (OMB) and known best
                      practices of other organizations, the Department had not
                      developed complex-wide standards for desktop software,
                      implemented a common method for acquiring such
                      software, and did not require organizations to actively
                      manage their inventory of existing licenses.

                                        Coordinated Approach

                      Despite emphasis from the OMB that an uncoordinated
                      approach to acquiring common software was wasteful and
                      ineffective, the Department had not established a formal
                      policy to support coordination of software purchases
                      among Headquarters and field sites. Although the
                      Department had established directives and guidance
                      relevant to managing information technology investments,
                      such policies did not specifically address a coordinated
                      approach to software acquisition and maintenance. In
                      addition to the lack of specific policy, the Department had
                      not established a central source of information, or
                      clearinghouse, to allow sites and programs to identify the
                      best available contracts or agreements.



________________________________________________________________
Page 3                                            Details of Finding
                      Numerous officials we spoke with during our review
                      emphasized the potential benefits of implementing a central
                      source of such information. Such a mechanism could have
                      included information about all Department contracts
                      available for use by sites, as well as current Government-
                      wide Acquisition Contracts. The Department of Defense
                      (Defense) also recognized as a best practice the importance
                      of communicating the existence and benefits of enterprise
                      agreements across an organization. Although the best
                      practices identified by Defense were discussed in our prior
                      report, the Department had not fully implemented similar
                      practices.

                                          Software Standards

                      The Department also had not developed complex-wide
                      standards for desktop software or instituted a common
                      method for acquiring such software. As we noted in our
                      recent report on Development and Implementation of the
                      Department's Enterprise Architecture (DOE/IG-0686,
                      April 2005), the Department had not completely defined
                      current or future information technology requirements,
                      including desired application standards. Although the
                      Department had attempted to implement software standards
                      through the Extended Common Integrated Technology
                      Environment initiative, it did not include all Headquarters
                      programs and had not applied those standards to facility
                      contractors. Had the Department established software
                      standards, it could have leveraged its buying power by
                      establishing enterprise-wide, standards-compliant software
                      contracts.

                      In addition, Department organizations had not implemented
                      common methods for acquiring software. Specifically, we
                      noted a lack of consistency in the processes used to acquire
                      software at the sites reviewed. While a limited number of
                      sites, such as Headquarters, implemented a mostly
                      centralized approach to acquiring software, the acquisition
                      process at other sites, including Brookhaven and Los
                      Alamos, was highly decentralized. At Los Alamos, we
                      found that purchasers could have obtained software through
                      six different approved methods, many without set or
                      negotiated pricing. Brookhaven also used similar, less
                      structured purchasing techniques, and paid at least




________________________________________________________________
Page 4                                            Details of Finding
                      27 different prices for two versions of an office automation
                      product. Without a centralized acquisition process,
                      Department organizations are unable to effectively control
                      prices paid for software or project future software needs.

                                        Inventory Management

                      The Department also had not fully utilized or designed
                      effective systems to manage its inventory of software
                      licenses, or to track the usage of existing licenses. As
                      previously noted, sites visited were not able to provide
                      accurate information regarding software maintenance and
                      usage due to the lack of effective systems for tracking such
                      information. We found that the Department had begun
                      development of an asset management initiative during our
                      review. While this positive step should assist the
                      Department with identifying an inventory of software
                      installed on desktops, this system is not expected to
                      compare installed software to the number of licenses
                      acquired. Unless progress is made in this area, the
                      Department will continue to have difficulty assessing
                      software needs and usage trends, ensuring effective
                      utilization of existing licenses, and ensuring that enough
                      licenses exist to support software installed on desktops.


Opportunities for     The Department has expended over $4 million more than
Savings               necessary by underutilizing existing software agreements
                      or purchasing software at higher prices, and acquiring
                      unneeded licenses. Specifically, the Department could
                      have saved about $2.1 million at the sites reviewed over the
                      past five years by effectively utilizing existing software
                      agreements or establishing new ones where possible. In
                      addition, another $2 million could have been saved at five
                      sites by optimizing utilization of the number of licenses
                      acquired and maintained for encryption software. If
                      improvements focusing on increasing the effectiveness of
                      software management are not made, the Department will be
                      unable to realize savings of at least $3.2 million that could
                      be achieved by leveraging its purchasing power through
                      utilization of volume discounts and eliminating
                      maintenance costs on excess software licenses (see
                      Appendix 2 for details). With the potential for such
                      significant cost savings, we believe it is vital that the
                      Department act to more effectively manage its software
                      acquisition and maintenance process across the complex.

________________________________________________________________
Page 5                                            Details of Finding
RECOMMENDATIONS      To address the issues identified in this report, we
                     recommend that the Department's Chief Information
                     Officer, in coordination with the Administrator, National
                     Nuclear Security Administration and other Lead Program
                     Secretarial Officers:

                          1. Develop and implement a formal policy for
                             ensuring that software purchases are coordinated
                             between Headquarters and field sites, to include
                             consideration of enterprise license agreements
                             with vendors, where appropriate, and
                             establishment of a central source of information to
                             allow sites and programs to identify the best
                             available contracts or agreements;

                          2. Develop and implement complex-wide desktop
                             software standards and consistent processes for
                             acquiring such software; and,

                          3. Ensure that sites/programs design and implement
                             asset management systems to effectively track
                             software license inventories and utilization of
                             existing licenses.


MANAGEMENT           Management concurred with the report's findings and
REACTION             recommendations and indicated that proactive steps had
                     been taken relative to our recommendations. Specifically,
                     the Department recently established an initiative to
                     renegotiate/consolidate software license agreements for a
                     common office automation suite. The initiative resulted in
                     recommendations to establish a policy for common
                     acquisition of products, as well as improving related cyber
                     security. Management strongly agreed that an enterprise-
                     wide asset management system must be implemented to
                     identify an accurate accounting of software used across the
                     complex. Officials noted that the lack of a complete
                     inventory was no longer on the critical path of current
                     enterprise license negotiations, but that such information
                     was critical for completing a license "true-up."

                     The National Nuclear Security Administration indicated
                     that it had no comments on the report and would work with
                     the Office of the Chief Information Officer to resolve
                     issues identified in the report.




________________________________________________________________
Page 6                              Recommendations and Comments
AUDITOR COMMENTS     Management's comments are responsive to our
                     recommendations. Where appropriate, we made changes to
                     the body of our report to address management's comments.
                     In particular, we modified our report to reflect the change
                     in current negotiation strategies that ameliorated the impact
                     of the lack of complete inventory information on current
                     enterprise-license negotiations.

                     Management's comments are included in their entirety in
                     Appendix 4.




________________________________________________________________
Page 7                              Recommendations and Comments
Appendix 1

OBJECTIVE             To determine whether the Department was effectively
                      managing the acquisition and maintenance of desktop
                      software across the complex.


SCOPE                 The audit was performed between October 2004 and
                      January 2006 at Departmental Headquarters in Washington,
                      DC, and Germantown, MD; the Lawrence Livermore
                      National Laboratory, Livermore, CA; the Lawrence
                      Berkeley National Laboratory, Berkeley, CA; the Oak
                      Ridge Reservation, Oak Ridge, TN; the Los Alamos
                      National Laboratory, Los Alamos, NM; and the Sandia
                      National Laboratories and National Nuclear Security
                      Administration Service Center, Albuquerque, NM.

                      We also obtained information from the Argonne National
                      Laboratory, Argonne, IL; the Brookhaven National
                      Laboratory, Upton, NY; the Fernald Closure Project,
                      Springdale, OH; the Idaho National Laboratory, Idaho
                      Falls, ID; the Kansas City Plant, Kansas City, MO; the
                      National Energy Technology Laboratory, Morgantown,
                      WV, and Pittsburgh, PA; the Pacific Northwest National
                      Laboratory, Richland, WA; the Pantex Plant, Amarillo, TX;
                      the Rocky Flats Environmental Technology Site, Golden,
                      CO; the Savannah River Site, Aiken, SC; and the Strategic
                      Petroleum Reserve, New Orleans, LA.


METHODOLOGY           To accomplish our audit objective, we:

                           •   Reviewed applicable laws and regulations
                               pertaining to acquisition and maintenance of
                               software licenses. We also reviewed guidance
                               issued by the Office of Management and Budget;

                           •   Reviewed reports issued by the Office of
                               Inspector General;

                           •   Reviewed numerous documents related to the
                               Department's management of software acquisition
                               and maintenance activities;

                           •   Held discussions with program officials and
                               personnel from Department of Energy
                               Headquarters and field sites reviewed, including
                               representatives from the Offices of the Chief

________________________________________________________________
Page 8                             Objective, Scope, and Methodology
Appendix 1 (continued)

                               Information Officer, Environmental Management,
                               Science, and Fossil Energy, as well as the
                               National Nuclear Security Administration; and,

                           •   Reviewed the Government Performance and
                               Results Act of 1993 and determined if
                               performance measures had been established for
                               managing software acquisition and maintenance.


                      The audit was conducted in accordance with generally
                      accepted Government auditing standards for performance
                      audits and included tests of internal controls and
                      compliance with laws and regulations to the extent
                      necessary to satisfy the audit objective. Accordingly, we
                      assessed internal controls regarding the acquisition and
                      maintenance of software licenses across the Department.
                      Because our review was limited, it would not necessarily
                      have disclosed all internal control deficiencies that may
                      have existed at the time of our audit. We also assessed
                      performance measures in accordance with the Government
                      Performance and Results Act of 1993 regarding acquisition
                      and maintenance of software. We found that none of the
                      nine field sites visited had established measures specific to
                      achieving cost savings associated with software acquisition
                      or for ensuring effective utilization of existing licenses.
                      While we did not rely solely on computer-processed data to
                      satisfy our audit objective, we confirmed the validity of
                      such data, when appropriate, by reviewing supporting
                      source documents such as contracts, purchase orders, and
                      invoices.

                      Management waived an exit conference.




________________________________________________________________
Page 9                             Objective, Scope, and Methodology
Appendix 2

POTENTIAL SAVINGS    In order to determine potential savings relevant to
                     leveraging the Department's purchasing power, we
                     compared prices paid at Sandia, Brookhaven, and the East
                     Tennessee Technology Park for certain common software
                     products to the lowest prices available through other
                     existing agreements. Based on our calculations, we
                     determined that those sites could save about $2.3 million
                     over the next five years.

                     In addition, we calculated the savings that could be realized
                     from effectively utilizing existing licenses at certain sites.
                     We multiplied the number of excess licenses identified for
                     encryption software by the unit maintenance cost. Using
                     this methodology, we determined that the Department
                     could save about $937,000 over the next five years by
                     eliminating maintenance costs from excess licenses of just
                     this product.

                     The table below details the possible savings the Department
                     could realize over the next five years.

                                                 Identified Annual          Potential Savings
                            Product                   Savings                   (5 years)
                      Enterprise Agreement Utilization
                        Office
                        Automation/
                        Project
                        Management                              $353,600              $1,768,000
                        Document
                        Imaging Software                         101,000                  505,000
                        Subtotal                                                        2,273,000
                      Encryption Software Licenses
                        Excess encryption
                        license
                        maintenance                              187,400                   937,000
                      TOTAL                                                           *$3,210,000
                     * Reflects only potential savings at a limited number of the sites
                     reviewed. We were unable to calculate Department-wide savings.




________________________________________________________________
Page 10                                         Potential Savings
Appendix 3

                              PRIOR AUDIT REPORTS


•   Development and Implementation of the Department's Enterprise Architecture
    (DOE/IG-0686, April 2005). The Department of Energy (Department) had not
    completely defined its current or future requirements, such as desired systems,
    supporting applications and hardware, and technology standards. Additionally, the
    lack of common elements in program architectures, such as complete system
    inventories and planned future information technology (IT) requirements, made it
    difficult to identify and eliminate duplicative investments. Without improvements,
    the Department may be unable to implement an effective corporate approach for
    managing IT investments.

•   Special Report - Management Challenges at the Department of Energy (DOE/IG-
    0667, November 2004). The Department continued to experience challenges in a
    number of important areas including IT management. While the Department
    continues to improve its IT management, it still had not fully satisfied the
    requirements of the Clinger-Cohen Act of 1996. Economy and efficiency issues
    continued to exist in various IT arenas.

•   Special Report - The Department of Energy's Implementation of the Clinger-Cohen
    Act of 1996 (DOE/IG-0507, June 2001). The Department had not satisfied major
    requirements of the Clinger-Cohen Act to develop and implement an integrated,
    enterprise-wide IT architecture and acquire IT related assets in an effective and
    efficient manner. Despite many years of effort and significant expenditures, the
    Department had yet to deploy an integrated, enterprise-wide IT architecture. Because
    of its decentralized approach to IT management, the Department has been unable to
    constrain duplicative information systems development and effectively deploy
    corporate-level systems.

•   Commercial Off-The-Shelf Software Acquisition Framework (DOE/IG-0463,
    March 2000). Without a framework, the Department had been unable to take
    advantage of enterprise-wide software contracts that could have resulted in savings of
    $38 million. Specifically, the Department had not developed and implemented
    software standards or effectively used enterprise-wide contracts, key components of a
    commercial off-the-shelf framework. The Department's inability to establish a
    framework was due to its decentralized IT strategy and lack of organizational support.




________________________________________________________________
Page 11                                        Prior Audit Reports
Appendix 4




Page 12      Management Comments
Appendix 4 (continued)




Page 13                  Management Comments
                                                             IG Report No. DOE/IG-0718

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Leon Hutton at (202) 586-5798.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                   http://www.ig.doe.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
